     PEACE CORPS
OFFICE OF INSPECTOR GENERAL




SEMIANNUAL REPORT TO CONGRESS
  OCTOBER 1, 2005 – MARCH 31, 2006
Cover: Three-time Peace Corps Volunteer Mary Ann Camp conducts an AIDS awareness
session for students at a clinic in Kachikau, Botswana.
                PEACE CORPS

    OFFICE OF INSPECTOR GENERAL

                                Vision

To conduct audits, evaluations, and investigations that uphold the
effectiveness, efficiency, and integrity of the agency in achieving the
goals set forth in the Peace Corps Act that Peace Corps Volunteers
experience a service that meets the needs of the people in their
countries of service, return to the U.S. with knowledge and respect
for the people and customs of those countries, and share their
knowledge and caring with those they touch in their lives as citizens
of the United States.




      SEMIANNUAL REPORT TO CONGRESS
          OCTOBER 1, 2005 – MARCH 31, 2006
                                                        TABLE OF CONTENTS

HIGHLIGHTS FROM THIS REPORTING PERIOD............................................................................. 1
    MESSAGE FROM THE INSPECTOR GENERAL ................................................................................................ 1
MANAGEMENT AND ADMINISTRATION ........................................................................................... 3
    AGENCY CONTEXT ..................................................................................................................................... 3
    OIG STAFFING............................................................................................................................................ 3
ADVICE AND ASSISTANCE PROVIDED TO THE AGENCY AND OTHERS ................................. 5
    MANAGEMENT ALERT AND MANAGEMENT IMPLICATION REPORTS ........................................................... 5
AUDITS AND PROGRAM EVALUATIONS ........................................................................................... 7
    OVERVIEW.................................................................................................................................................. 7
      FY 2005 Agency Financial Statement: Audit ........................................................................................ 8
      East Timor: Audit.................................................................................................................................. 9
      Namibia: Audit...................................................................................................................................... 9
      Vanuatu: Audit.................................................................................................................................... 10
      The Gambia: Follow-up Audit and Program Evaluation ................................................................... 10
      The Gambia: Follow-up to a Management Alert Report .................................................................... 11
      Bulgaria: Evaluation .......................................................................................................................... 11
INVESTIGATIONS ................................................................................................................................... 13
    OVERVIEW................................................................................................................................................ 13
    VIOLENT CRIMES AGAINST VOLUNTEERS ................................................................................................ 14
    CLOSED CASES OF VIOLENT CRIME AGAINST VOLUNTEERS .................................................................... 16
    PENDING CASES OF VIOLENT CRIME AGAINST VOLUNTEERS ................................................................... 18
    TITLE 18 CRIMINAL AND OTHER INVESTIGATIONS CONDUCTED .............................................................. 20
       CASE INVESTIGATIONS LEADING TO DISPOSITION .................................................................................... 20
       ACTIVE INVESTIGATIONS OF PENDING CASES .......................................................................................... 22
TABLES ...................................................................................................................................................... 25
    TABLE 1: LIST OF REPORTS: AUDITS, EVALUATIONS AND INSPECTIONS ................................................ 25
    TABLE 2: REPORTS ISSUED WITH COSTS QUESTIONED OR FUNDS PUT TO BETTER USE ......................... 26
    TABLE 3: STATUS OF REPORTS ISSUED BY OIG WITH QUESTIONED COSTS ............................................ 27
    TABLE 4: STATUS OF REPORTS ISSUED BY OIG WITH FUNDS PUT TO BETTER USE ................................ 28
    TABLE 5: REPORTS WITH RECOMMENDATIONS ON WHICH CORRECTIVE ACTION HAS NOT BEEN
    COMPLETED ............................................................................................................................................. 29
    TABLE 6: SUMMARY OF INVESTIGATIVE ACTIVITY ................................................................................ 30
    TABLE 7: SUMMARY OF HOTLINE AND OTHER COMPLAINTS.................................................................. 31
    TABLE 8: REFERENCES TO REPORTING REQUIREMENTS OF THE INSPECTOR GENERAL ACT ................... 32
  HIGHLIGHTS FROM THIS REPORTING PERIOD

                       MESSAGE FROM THE INSPECTOR GENERAL

I am very honored to have been appointed to the position of Inspector General for the
Peace Corps on February 5, 2006, during this reporting period. I am further honored to
be leading such a talented team of conscientious individuals in the Peace Corps Office of
Inspector General, who play the vital role of the guardians of integrity and efficiency in
the Peace Corps and as protectors of the public trust against waste, fraud and abuse.

There have been a great deal of accomplishments over the past six months and there
remains much work to be done. Our evaluators, auditors and investigators have
uncovered a great deal of information that has assisted management in implementing
various reforms at the Peace Corps’ posts overseas and in headquarters.

Our auditors have continued their critical work in connection with the agency financial
statement audit by assisting the agency in improving the overall financial health of the
Peace Corps in accordance with the requirements of the Federal Managers Financial
Integrity Act and Federal Financial Management Improvement Act. During this
reporting period, our auditors also audited several posts and provided valuable
information regarding financial and administrative matters occurring overseas.

Our evaluators conducted program evaluations at a number of posts and in one case,
conducted a follow-up to a prior evaluation to ensure that management was addressing
the concerns that we found at post in an appropriate fashion.

During this reporting period, the evaluators also began a landmark and innovative
programming study in which they traveled to high-performing posts in order to assess
what makes these posts perform at such a high level. This study was proposed after a
review of numerous historical evaluation reports revealed continued concerns about the
level of assignments at posts and noted the importance of good and effective
programming in achieving the agency’s mission and goals. The overall purpose of this
study is to provide to the agency with the information it needs to improve its
programming so that fewer Volunteers are sent to sites where their assignment proves
unviable, unsatisfying, or requiring few hours per week of meaningful engagement.
Three specific objectives of this study are the following: (1) to describe the programming
process; (2) to achieve some insight into what is needed to improve programming and
reduce the number of Volunteers in unviable assignments; and (3) to focus attention on
good programming and to strengthen the agency’s capacity to implement good
programming and to identify impediments and deficiencies that obstruct good
programming. The first half of the study was completed during this reporting period and
the second portion will be completed shortly. We plan to utilize the results not only to
provide valuable information to the agency but as benchmarks for the OIG evaluators for
use in future evaluations and assessments.


   Semiannual Report to Congress       October 1, 2005 to March 31, 2006                   1
Our investigators have been very busy during this reporting period. OIG investigators
not only have responsibility for waste, fraud, abuse and violations of criminal statutes,
but are charged with coordinating investigations of all violent crimes against Volunteers
and assisting with prosecution efforts in the local jurisdictions. In order to assist these
efforts, during this reporting period, the agency issued an Interim Policy Statement
(“IPS”) on the hiring of attorneys for Volunteer/Trainee Victims of Crimes. Pursuant to
this IPS, the OIG, as the responsible office, will make determinations in appropriate cases
to authorize the use of appropriated funds to retain counsel for Volunteer/Trainee victims
of violent crimes after informing the Peace Corps Director of its decisions. This new
authority has already been invoked on two occasions and we have found that it is
extremely useful to support our office’s efforts to protect the rights of victims and ensure
appropriate action is taken in foreign countries to bring perpetrators to justice.

During the next reporting period, we will continue our commitment to work with the
Peace Corps to address its management challenges and to ensure the efficiency,
effectiveness and integrity of agency operations. We take pride in our past
accomplishments and anticipate future ones of even greater significance.




2                                            U.S. Peace Corps Office of Inspector General
         MANAGEMENT AND ADMINISTRATION
                                   AGENCY CONTEXT

At the end of FY 2005, 7,810 Peace Corps Volunteers and Trainees were serving in 77
countries at 71 posts. In addition, there were 43 Volunteers working in the President’s
Emergency Plan for AIDS Relief-funded projects. The Volunteers and their programs
are supported by 854 American direct hire staff— 201 overseas, 116 in the regional
recruiting offices, and the remaining 537 in Headquarters. Approximately 2,000 locally
hired personnel complete post staffing. The Peace Corps also has corporate contracts
domestically and overseas, principally for guard services and training, and hires expert
consultants, largely for training and financial management.

In 1996, the Peace Corps established a complementary program called Crisis Corps that
gives former Peace Corps Volunteers an opportunity to return to similar positions of
service overseas for short-term assignments. At the end of FY 2005, 82 Crisis Corps
Volunteers were serving overseas in eight countries and 131 were serving in the southern
United States to assist with hurricane recovery efforts.


                                     OIG STAFFING

During the reporting period, the agency filled the position of Inspector General. The new
Inspector General, H. David Kotz, has a wealth of management, legal and investigative
experience, having worked previously in the Peace Corps, the U.S. Agency for
International Development (“USAID”) as well as for large and small law firms in New
York City and Washington, D.C. Mr. Kotz initially joined the Peace Corps in October
2002 serving as the Associate General Counsel for Litigation with responsibilities for
overseeing all agency litigation, including administrative and federal court proceedings,
labor arbitrations and employee grievances. Prior to the Peace Corps, Mr. Kotz worked
in several capacities at USAID beginning in May 1999, both in the Office of General
Counsel, and as head of administrative/disciplinary investigations for USAID. Mr. Kotz
also has nearly 10 years of experience practicing federal administrative law for several
prestigious law firms.

Additional staff changes in progress include the filling of the position of Assistant
Inspector General for Investigations, which will be completed shortly, and the addition of
a new investigator position, for which the office is recruiting at the present time. The
current AIG for Investigations, who has served as both AIG for Investigations and
Counsel, will remain in the IG Counsel position.

In addition to the usual investigative work of an OIG, this office coordinates
investigations in cases around the world of violent crimes against Peace Corps
Volunteers. The investigative staff manages a hotline 24/7 for this purpose. The result is



   Semiannual Report to Congress       October 1, 2005 to March 31, 2006                   3
a large number of investigative cases open at any given time and requires that the AIG for
Investigations give this his/her full attention. With the filling of the AIG for
Investigations (AIG/I) position and the additional investigator position, that unit will have
four investigators and an investigative analyst working under the AIG/I.

During the reporting period, one of our evaluators resigned and we are in the final stages
of re-filling that position.




4                                             U.S. Peace Corps Office of Inspector General
          ADVICE AND ASSISTANCE PROVIDED
            TO THE AGENCY AND OTHERS

          MANAGEMENT ALERT AND MANAGEMENT IMPLICATION REPORTS

When we want to highlight a problem that needs prompt action or should be addressed by
a senior manager other than the one to whom the full report is addressed, we issue special
memoranda. These memoranda are also used to bring attention to the implications of a
repetitive or agency-wide problem.

     Management Alert Report on the Peace Corps’ Manual Section Providing
     Guidance to Overseas Offices on Provision of Benefits to Local Employees

We issued this memorandum on October 19, 2005, to call attention to the fact that the
agency’s overseas posts were not always providing all of the benefits to local employees
required by local law. This had opened several overseas posts to local litigation—in one
case, the court-ordered seizure of the agency’s vehicles. Failure to pay locally required
benefits, such as payments to the equivalent of a social security account, also exposes the
agency to a future liability. Such liabilities, in addition to being a potential financial
burden for which the agency is not setting aside resources, must be calculated and
reported in the agency’s annual financial statement, which is not currently being done.

We also noted that this was occurring because the agency’s guidance to its overseas
offices was internally contradictory and difficult to understand. Our memorandum
recommended that the agency consider changing the guidance to provide full compliance
with the local compensation plan at overseas posts.

In response to this, the Office of General Counsel and the Office of Acquisition and
Contract Management met with the IG and agreed to re-write the existing policy
guidance in coordination with the OIG to clarify the language.

  Management Alert Report on Role of Peace Corps Safety and Security Officers

We issued this memorandum to call attention to confusion existing overseas about the
respective roles of the Peace Corps Safety and Security Officers stationed regionally, the
Peace Corps Safety and Security Coordinators stationed at each post, and the
investigators of the Office of Inspector General. The memorandum suggested that the
Associate Director for Safety and Security issue a clarification of responsibilities to the
Safety and Security Officers and Safety and Security Coordinators.

After extensive consultation, the Inspector General and the Associate Director of Safety
and Security agreed upon a joint memorandum of clarification that was issued to all
senior staff within the agency, to all safety and security staff of the agency, and to the


   Semiannual Report to Congress        October 1, 2005 to March 31, 2006                    5
management and staff at the Department of State with whom agency staff coordinate in
following up on safety and security issues and the investigations of crimes against
Volunteers overseas. We have received numerous reports from the field to suggest that
this memorandum was greatly appreciated and assisted enormously in the clarification of
the roles of the offices.

        Management Alert Report Requesting the Director’s Attention to
         Matters Affecting the Office of Inspector General’s Capacity to
    Coordinate the Investigation of Violent Crimes Against Volunteers Overseas

This memorandum was sent to the Director, requesting his support in addressing
management issues related to responding to violent crimes against Volunteers. Specific
requests included the Director’s facilitation to release a policy statement on the retention
of counsel to assist the effective prosecution of perpetrators of violent crimes against
Volunteers and to approve an additional staff position for the Office of Inspector General
to manage this function.

During the reporting period, the Director issued an interim policy statement on the
retention of counsel, appointed an Inspector General, and approved two new positions for
the Investigative unit of the Inspector General’s office. This has given the office
significantly increased flexibility and capacity to coordinate the investigation of violent
crimes against Volunteers and to facilitate the prosecution of perpetrators.

Management Alert Report on a Follow-up to an Earlier Management Alert Report
      Concerning the Health Sector Project in Peace Corps/The Gambia

We issued this memorandum based on a follow-up we did to our September 2003
evaluation and audit of The Gambia. In the Management Alert issued after our
evaluation and audit of 2003, we urged that the schedule for new Volunteers to the health
project be delayed to give the post a chance to correct the serious deficiencies of the
project. (See our Semi-Annual Report for the period October 1, 2003 – March 31, 2004.)
The agency declined to take this action.

In our follow-up visit, we found the project had further deteriorated and that more than
half of the Volunteers sent in the group whose arrival we had urged be delayed had
already terminated service early. The Volunteers reported to us that this was attributable
to the fact that they did not have viable assignments. In this management alert we
recommended that the health project be cancelled.

In its response, management asserted that the project was viable and that it would be
continued. We pursued discussions with management on how to effect a change that
might result in rewarding assignments for the Volunteers. As a result of these
discussions, management has agreed to implement structural changes in the assignments
of the Volunteers in this project and consider whether further and more drastic changes
are necessary if after these structural changes are implemented, the Volunteers are still
unable to obtain viable assignments.



6                                            U.S. Peace Corps Office of Inspector General
         AUDITS AND PROGRAM EVALUATIONS

                                        OVERVIEW

The Peace Corps OIG focuses principally on the programs, financial and administrative
operations, and staff support that sustain Peace Corps Volunteers serving around the
world. We do this through audits and evaluations of the agency’s posts overseas and its
functions in headquarters and domestic recruiting offices.

Both individual staff members and multi-disciplined teams carry out these reviews.
Whenever the work is by a team, we publish a single, combined report of findings and
recommendations. For some highly technical audits, we also contract with firms and
individual experts.

Audits examine operations and financial transactions to ensure that good management
practices are being followed and that government resources are adequately protected in
accordance with law and regulation.

Most of our audits are of overseas posts and include a review of financial and
administrative practices and the safety and security of persons and property. Audits of
headquarters activities include the implementation of specific functions, responses to
management requests, and consultations with Peace Corps managers on issues related to
audits. Audits may also include follow-up on previous audits and a limited follow-up on
previous program evaluation findings and recommendations.

Our auditors also perform contract audits of the indirect rates for all contractors for which
the Peace Corps has audit cognizance and of the direct costs on cost-plus-fixed-fee
contracts. We conduct peer reviews of the audit organizations of the OIGs of other
federal agencies, and peers of other agencies’ OIGs review us. We also have oversight
responsibilities over work performed by contract auditors conducting work required
under the provisions of the Accountability of Tax Dollars Act of 2002 and the Federal
Information Security Management Act.

Program Evaluations review the operation and administration of a specific unit of the
Peace Corps or may involve a limited review of a particular problem, issue, or function.

Most evaluations are of overseas posts. Post evaluations provide management with a
comprehensive assessment of how programs are functioning overseas. This includes a
review of the Volunteers’ sites and assignments, their integration into their communities,
the quality of their training, the quality of the support provided to them, and the adequacy
of the post’s administrative infrastructure to manage the program. Evaluations focus
particularly on the effectiveness, satisfaction, and well being of the Volunteers, including
their housing, health care, and safety. Evaluators send a survey to all Volunteers in


   Semiannual Report to Congress        October 1, 2005 to March 31, 2006                  7
country, interview a representative sample of one-fourth or more of the Volunteers at
their sites, and interview Peace Corps staff and Volunteers’ co-workers and supervisors.

Post evaluations that do not accompany an audit may include a limited review of the
post’s financial and administrative practices, and compliance with agency rules and
regulations on these matters. Evaluations may also include follow-up on the findings of a
previous program evaluation and a limited follow-up on previous audit recommendations.


                     FY 2005 Agency Financial Statement: Audit

All agencies are required to produce financial statements by law and Offices of Inspector
General are required to audit those statements. The financial statement audit for fiscal
year 2005 was conducted by an independent public accounting firm under the direction
and supervision of the Office of Inspector General. The audit opinion was issued on
November 15, 2005 in accordance with the accelerated financial statement reporting
timeline.

The accounting firm issued a disclaimer of opinion on the Peace Corps’ FY 2005
financial statements with five reportable conditions, all of which were considered to be
material weaknesses. These reportable conditions addressed were:

    •   Financial management structure and process monitoring.
    •   Accounting process.
    •   Substantiation of material account balances.
    •   Oversight and monitoring of reconciliations and financial reporting.
    •   Information system control environment.

The Peace Corps was not in compliance with the Federal Managers Financial Integrity
Act, which requires the agency head to annually evaluate and report on the agency’s
management control and financial systems. The Peace Corps had not established a
formal process for evaluating its management and financial controls.

In addition, the Peace Corps financial management systems did not substantially comply
with federal financial management systems requirements established under the Federal
Financial Management Improvement Act. The Peace Corps’ financial management
systems did not have adequate internal controls over contingency plans and data
transmission and were not fully certified and accredited. The systems also lacked
functionality to support timely and effective reconciliation and review at the transaction
level. The financial management systems were not being used to properly identify
intragovernmental and governmental transactions. Peace Corps also had deficiencies
within the systems’ transaction posting logic.




8                                            U.S. Peace Corps Office of Inspector General
                                     East Timor: Audit

We conducted an audit of Peace Corps/East Timor August 22 - September 2, 2005. The
Peace Corps began its program in East Timor in 2002, shortly after the country gained
independence from Indonesia. At the time of our visit, Peace Corps/East Timor was
being transferred from the Inter-America and Pacific region to the Europe,
Mediterranean, and Asia region. Thirty-one Trainees were participating in pre-service
training and 27 Volunteers were working in two program sectors: health and community
development.

The post had been hampered prior to the audit by having 11 permanent and temporary
duty administrative officers since the inception of the program in 2002. Administrative
staff told us that the continuous changes in supervisors had been stressful and had
affected their work, and they unanimously stated that they needed additional training to
strengthen their job skills.

We found that the post’s financial and administrative operations had not fully complied
with Peace Corps policies and federal regulations. The administrative officer at post
when we conducted the audit had arrived in November 2004 after an abbreviated training
at headquarters and functioned as acting country director from April - July 2005. While
acting country director, he was responsible for preparing, reviewing, and approving
financial documents as well as cashiering responsibilities. This was a critical deficiency
in internal control.

Prior country directors had not provided proper oversight over the imprest fund. A
personal services contractor, who is not permitted by Peace Corps policy to function as
cashier, operated the imprest fund and prepared replenishment vouchers and monthly
reconciliation reports. The fund had an unexplained overage that had varied from month
to month. Further, the cashier had not performed a daily reconciliation of the fund.

In addition, the billing officer did not prepare the bill of collection and record the billing
until the collection was made, and the billing log was incomplete. Also, the post did not
evaluate the performance of its contractors, and maintained incomplete contract files.

Management concurred with 26 of our 27 recommendations. As of the end of this
reporting period, 23 recommendations are closed and four remain open.


                                      Namibia: Audit

We conducted an audit of Peace Corps/Namibia May 18 – June 6, 2005. We also
reviewed the financial procedures for the funds received under the President’s
Emergency Plan for AIDS Relief (President’s Emergency Plan). We also conducted a
follow-up to the audit done in 1999 (IG-99-19), and we found that 11 of the 32 audit
recommendations from that report had not been implemented.




   Semiannual Report to Congress         October 1, 2005 to March 31, 2006                   9
The first group of 14 Volunteers arrived on September 9, 1990, less than six months after
the country achieved independence. At the time of this review, there were 94 Volunteers,
including six Crisis Corps Volunteers in the President’s Emergency Plan program.

The post was struggling administratively during our visit. In order to stay within their
reduced budget, the post had not filled five positions. There had also been significant
turnover in the country director and administrative officer positions; recent American
staff at post had remained for approximately half their appointed 30-month terms.

We found a total of approximately $10,850 in uncleared interim advances, some dating
back to 2001. These uncleared interim advances included those from a dismissed
employee and several from an employee who claimed he had submitted receipts. In
addition, there were outstanding international and local travel advances totaling
approximately $2,185; a majority of these advances were for fiscal year 2004. Also, we
found that two full-time staff, whose salaries were paid wholly from the President’s
Emergency Plan funds, were performing duties unrelated to the President’s Emergency
Plan activities.

Management concurred with all 36 of our recommendations. As of the end of this
reporting period, 27 recommendations are closed and nine remain open.


                                     Vanuatu: Audit

We conducted an audit of Peace Corps/Vanuatu August 8 - 19, 2005. The Peace Corps
began its program in Vanuatu in 1990. At the time of our visit, 61 Volunteers were
working in two program sectors: education and community development.

The post’s financial and administrative operations did not fully comply with Peace Corps
policies and federal regulations. The country director and administrative officer did not
provide sufficient oversight over the imprest fund and billings and collections.

In addition, we found that the post did not adequately control its property and medical
inventories, properly maintain time and attendance, correctly handle Volunteer property
held for safekeeping, and provide adequate IT security.

We accepted Management’s response and closed all 28 recommendations.


               The Gambia: Follow-up Audit and Program Evaluation

We conducted a follow-up to our 2003 program evaluation and audit of Peace Corps/The
Gambia. Management had concurred with 35 of the 36 recommendations resulting from
that audit. At that time, we closed 33 of the 36 program evaluation and audit report
recommendations.




10                                           U.S. Peace Corps Office of Inspector General
During the follow-up review, conducted October 23 - November 10, 2005, we selected 33
of the original 36 recommendations for follow-up. We confirmed implementation of 26
and found four recommendations in process of being implemented and three partially
implemented. For one of the recommendations, we issued a Management Alert Report
that informed management of one serious programming shortcoming that had not been
corrected but had instead, deteriorated further.


               The Gambia: Follow-up to a Management Alert Report

This work was carried out as part of the follow-up described above and issued as a
separate report. It assessed the effect of management’s actions in response to seven
recommendations from the 2003 audit and program evaluation that we issued in a
Management Alert Report because of their urgency.

Management had concurred with six of the seven recommendations, and our follow-up
confirmed that the post had implemented all six of these recommendations. These
included a cost-of-living survey that resulted in an increase to the Volunteers’ living
allowance; a new compensation plan for local employees that complied with local labor
laws and with time and attendance requirements; discontinued unauthorized use of
official vehicles for personal use by American direct hire staff; issuance of written policy
guidance on the use of vehicles; access to a vehicle at all times to medical staff for
medical emergencies; and initiation of pre-service training improvements for the
Volunteers in the health sector.

Because management had not concurred with the seventh recommendation, the follow-up
report, which addressed management’s implementation of recommendations to which it
had concurred, did not specifically address it. The follow-up assessment did find,
however, that the original recommendation was on target, and the OIG issued a
Management Alert Report on this situation, which was the lack of viable assignments for
the Volunteers in the health sector. (See Management Alert Report on page 6.)


                                   Bulgaria: Evaluation

We conducted a program evaluation of Peace Corps/Bulgaria August 3 - 24, 2005. Peace
Corps Volunteers first arrived in Bulgaria in June 1991 to teach English at secondary
schools and universities. At the time of our visit, 151 Volunteers were serving in
Bulgaria.

Bulgaria is working its way to full membership in the European Union. Much of what
the Volunteers are there to promote—English language, tourism, environmental
preservation, good governance—is seen as contributing to this process and desired
because of that.

Our assessment of the Peace Corps program in Bulgaria revealed contradictory findings.
Volunteers reported a high level of satisfaction—the majority of those responding to our


   Semiannual Report to Congress        October 1, 2005 to March 31, 2006                 11
survey reported their experience to be very or extremely rewarding—however, they also
reported much lower satisfaction from their work assignments.

Dissatisfaction with assignments was most pronounced among Volunteers in the
Community and Organizational Development project. The Volunteers in this project
effectively were required to develop their own assignments, but many had difficulty
finding a niche where they were needed and where they had the necessary skills.
Volunteers were underemployed and many took the option of raising money for a
“project” that allowed them to leave something tangible behind, though it may have had
no relationship to their assignment. This perpetuated the expectation that Volunteers
would bring money to their sites and may have been the motivation for organizations in
seeking a Volunteer. Additionally, we found that Volunteers had excessive unstructured
time, which tempted Volunteers to leave their sites. We found that this project needed a
top to bottom re-thinking and, if continued, top to bottom revisions.

The Youth Development project shared some of the assignment challenges of the
Community and Organizational Development project, but it seemed to hold more
promise. The Volunteers teaching in the schools felt they could use more technical
training, but overall, this was a solid project with Volunteers who were clear about what
they were doing.

The most serious threat to the Volunteers’ safety and to the Peace Corps’ reputation and
integrity in Bulgaria was excessive consumption of alcohol and unprofessional behavior
by a few Volunteers.

Management concurred with 10 of our 11 recommendations. As of the end of this
reporting period, seven recommendations are closed and four remain open.




12                                          U.S. Peace Corps Office of Inspector General
                              INVESTIGATIONS

                                         OVERVIEW

Investigations respond to allegations of criminal wrongdoing, fraud, and abuse that come
to us through audits and evaluations; through hotline complaints; and from Volunteers,
Trainees, staff, and the public. We also investigate integrity violations. The Office of
Inspector General is charged by law with the conduct of criminal investigations. The
Inspector General is also authorized by statute to develop policy for the conduct of
investigations, and to coordinate and supervise the conduct of investigations. For both
domestic and overseas investigations, investigators work with other offices within the
agency or with other agencies, including law enforcement officials and public
prosecutors, as appropriate.

With over 7,000 Volunteers in more than 70 countries, incidents of crime against them
are inevitable. Part of the agency’s support to Volunteers who become victims is a
protocol under which country directors report incidents of violent crimes against
Volunteers to the OIG, and we coordinate the investigation of the crimes with the country
director, headquarters offices, the State Department’s Office of Diplomatic Security
Services, and the embassy’s Regional Security Officer (RSO). We work with the RSO to
develop the best evidence for local trial, from witness statements to photo spreads to
DNA analysis. As needed, we accompany witnesses back to the country where the crime
occurred for lineups, depositions, and trial. We consult with the Department of Justice’s
Office of Foreign Litigation and obtain assistance from the Federal Bureau of
Investigations (FBI), including the forensic laboratory at Quantico and the overseas legal
attaches, the Armed Forces Institute of Pathology at the Walter Reed Army Medical
Center, and the Secret Service Forensic Services Division. We manage and coordinate
the agency’s part of the investigative and prosecution process from the initial incident to
the closing of the case. Our role in coordinating the investigation and prosecution of
violent crimes against Peace Corps Volunteers brings a high volume of work but also
gives us the opportunity to help curb violence against Peace Corps Volunteers.

The OIG operates a 24/7 duty officer system for direct and immediate contact by country
directors with criminal investigators in this office to coordinate the response to violent
crimes against Volunteers and assist in supporting them as victims of crime. Early
intervention and coordinated support has enhanced the quality of investigations.

The victim is the focus of our response to crimes against Volunteers, and the 2004 “Equal
Access to Justice Act” and other Congressional enactments and Attorney General
guidance provide a prescriptive framework for the OIG’s victim advocacy responsibilities
and authority.

We are working in partnership with the agency’s Office of Medical Services (OMS) to
coordinate our mutual response to sexual assaults within the model of a Sexual Assault


   Semiannual Report to Congress       October 1, 2005 to March 31, 2006                 13
Response Team (SART). During the reporting period, the OIG and OMS staff provided
training to Peace Corps Medical Officers (PCMOs).

OIG staff has also worked with OMS staff to train medical staff in developing
photographic evidence of injuries to victims. OIG has provided a special measurement
device for PCMOs to use for this purpose.

We are receiving support from the agency’s information technology experts to develop an
automated case management platform to enhance our ability to manage our cases.

We have several cases arising from the Protect Act. In these cases, we conduct a
preliminary investigation of the accusations of improper sexual conduct between
Volunteers and minors overseas. If we determine that a probable violation has occurred,
we request the assistance of Immigration and Customs Enforcement (ICE) of the U.S.
Department of Homeland Security, which has legal jurisdiction over these cases. If a
U.S. Attorney accepts the case, ICE conducts a full investigation in collaboration with us
and with the Diplomatic Security Service (DSS) under the supervision of the Department
of Justice.

We have launched a fraud prevention and investigation initiative of claims paid under the
Federal Employees Compensation Act (FECA) in coordination with the Peace Corps
Office of Medical Services and in partnership with the Office of Inspector General of the
U.S. Department of Labor (DOL/OIG). FECA is administered and adjudicated by the
Department of Labor’s Office of Workers Compensation Programs. The cost to the
agency of FECA benefits for eligible former Peace Corps Volunteers and staff is nearly
$11,000,000 annually. This represents 3% of the agency’s total appropriated funds, the
highest percentage of any federal agency. We are conducting a systemic review of
existing claims. We are coordinating with OMS to identify the types of claims that
represent long-term costs, and we are coordinating with OMS to identify the types of
claims that represent long-term costs, and we are coordinating with counterpart criminal
investigators from the DOL/OIG on FECA fraud investigation procedures.

Concurrent with our strategic initiative with both OMS and the DOL/OIG, the Inspector
General Community has instituted a community-wide initiative to coordinate response to
the investigation of potential fraud in FECA. Our office has been tasked with leadership
positions in this long-range initiative which will examine issues ranging from claims
processing to potential statutory changes in the Federal Employees Compensation Act.


                          Violent Crimes Against Volunteers

Overseas posts are required to report immediately any incident of a specified list of
violent crimes against Volunteers to the OIG and RSO. Early notification and response is
critical to a successful investigation and prosecution, which may assist in a victim’s
recovery, serve as a protective deterrent, and remove violent persons from society.



14                                           U.S. Peace Corps Office of Inspector General
Incidents/crimes that are to be reported to the OIG and RSO are:

   •   Volunteer Death (under any circumstances)
   •   Kidnapping
   •   Rape and Attempted Rape
   •   Major Sexual Assault
   •   Robbery
   •   Aggravated Assault
   •   Major Physical Assault
   •   Burglary with Volunteer/Trainee present (or attempted)
   •   Death Threat
   •   Intimidation/Stalking (also Domestic Violence)

Crimes are reported on the OIG crime hotline violentcrimehotline@peacecorps.gov, from
which the Inspector General and investigative personnel receive notification on a 24/7
basis to assure prompt assistance and coordination in their investigation. For all overseas
crimes, the OIG engages with the Criminal Investigative Liaison Branch (CIL) of the
Bureau of Diplomatic Security to facilitate communications and support to the victim and
to the Peace Corps post. During the reporting period, approximately 162 preliminary
inquiries were opened, which resulted in the initiation of 24 investigations.

We have also established a dedicated law enforcement liaison line (911@peacecorps.gov)
for other federal and foreign law enforcement agencies to access OIG investigative
personnel on a 24/7 basis. This resource for coordination among law enforcement
agencies may be the first of its kind.

Each of our three investigators has primary responsibility for cases in one of the agency’s
three geographic regions overseas: Africa; Inter-America and Pacific; or Europe,
Mediterranean, and Asia. This allows them to develop closer coordination with
counterparts in-country and a better understanding of the characteristics of each country
and its criminal justice system.

Investigative work in these cases can include an interview with the victim, the collection
of evidence, assistance to local police, preparation of crime scene sketches, and arranging
for State-side analysis of evidence, e.g., DNA, urine analysis, by the FBI or the Armed
Forces Institute of Pathology. The OIG coordinates with Peace Corps Medical Officers
and the Embassy RSO to preserve, protect, and return evidence for analysis when agreed
upon with the local police. Assistance to the local police may include the collection of
specimen evidence from suspects in custody.

The OIG works closely with other federal investigative and law enforcement agencies.
Well over 90% of our preliminary inquiries and actual cases are worked jointly with other
agencies. The cooperation and assistance we receive from CIL in Washington, RSOs in
the field, the FBI’s Legal Attachés worldwide, and the FBI laboratory in Quantico make
these investigations possible and potentially successful. Because we do not have agents



   Semiannual Report to Congress       October 1, 2005 to March 31, 2006                 15
stationed abroad, we rely heavily on the RSOs and their local investigative staff in our
follow-up to crimes against Volunteers and our coordination of their investigation.

The decision to go forward with a prosecution is a personal one for the victim.
Proceeding with a prosecution can enhance the recovery of the victim. The decision to
investigate is that of law enforcement regardless of a victim’s decision to prosecute. Our
focus in the investigation of these crimes is on prosecution as a means to both justice and
prevention.

The OIG keeps the Department of Justice’s Office of Foreign Litigation informed of
crimes against Volunteers. In rare cases, the U.S. Department of Justice agrees to assist,
and they can provide funding for such intervention. The OIG coordinates their
involvement when they agree to do so. The OIG also provides guidance to overseas posts
on the retention of local counsel for purposes of providing legal advice to the Peace
Corps and to the victim.

As a federal criminal investigative entity, the OIG has responsibilities to see that all
Volunteer victims of violent crimes receive victim advocacy. In the spirit of these
requirements, the Department of Justice provided a letter of authorization to the Inspector
General providing for OIG retention of local counsel to represent Volunteer victims of
crime overseas and the agency received congressional support for its authority to spend
appropriated funds for this purpose. A major difficulty for Volunteer victims is the lack
of prosecutorial support and the nature and requirements of some legal systems overseas.

The agency recently approved an Interim Policy Statement which sets out procedures for
the use of appropriated funds under limited circumstances to hire local legal counsel for
Volunteer victims of crimes overseas. The OIG has utilized these procedures to authorize
the hiring of local legal counsel on two occasions during the reporting period.

CLOSED CASES OF VIOLENT CRIME AGAINST VOLUNTEERS:

     •   In the Caribbean, a Volunteer was raped and robbed at knifepoint. The suspect
         was subsequently arrested, identified, and detained. The OIG coordinated with
         the RSO and local police to attend a preliminary hearing and conduct follow-up in
         country in preparation for trial. The subject was convicted of rape and robbery
         and received 10 and 5 years to be served concurrently. This was the first
         successful rape prosecution that we are aware of relating to a crime against a
         Volunteer in this country and sent a strong message of deterrence.

     •   A Volunteer in Africa was struck in the head with an ax by a man demanding
         money. He fled on a motorcycle driven by an accomplice. The Volunteer
         recovered and closed service. The attacker and accomplice were apprehended and
         convicted to terms of 12 and 10 years.

     •   A Volunteer in northern Africa was assaulted by three men. The prosecuting
         authority sentenced all three subjects to a monetary fine and a two-month


16                                           U.S. Peace Corps Office of Inspector General
       suspended sentence, even though the Volunteer had not requested prosecution,
       sending a strong message that the host country takes crimes against Volunteers
       seriously.

   •   The OIG coordinated with local authorities in the case of a sexual assault in
       Eastern Europe. The police conducted an investigation and were successful in
       locating the subject who was sentenced to six months confinement in a mental
       institution.

   •   In the Caribbean, a Volunteer was robbed and assaulted by a taxi driver and
       cohort. The perpetrators were arrested and brought to trial but were acquitted,
       due to evidentiary weaknesses. (The same two suspects were subsequently caught
       committing an armed robbery of a casino.)

   •   In the Caribbean, a Volunteer received a death threat. The perpetrator was not
       identified, and the Volunteer was transferred to another site.

   •   In South America, a Volunteer received a death threat. One suspect was
       interviewed by the RSO, and it was determined that he was not the perpetrator of
       the death threat. The Volunteer was transferred to another site.

   •   A Volunteer was attacked by a group of teenagers in a central Asian country. The
       Volunteer could not identify the subjects and departed the country.

   •   In a central Asian country, a Volunteer was the victim of a rape while walking
       along a road. Despite efforts by the Volunteer, the OIG, the host country
       government, and the RSO to identify the perpetrator, the case was closed for lack
       of evidence.

The following cases were closed because the victims decided not to pursue prosecution.

   •   A case of a Volunteer robbed of a cell phone and backpack in a central Asian
       country. During the robbery, the Volunteer was stabbed with a knife, but the
       knife did not penetrate his jacket.

   •   A case of a Volunteer in a south central Asian country who was the victim of an
       assault by a group of local youths.

   •   A Volunteer who was raped in Eastern Europe.

   •   A Volunteer who was raped in Central Asia.

   •   A reported Volunteer rape victim in another Eastern European country.




   Semiannual Report to Congress      October 1, 2005 to March 31, 2006                  17
PENDING CASES OF VIOLENT CRIME AGAINST VOLUNTEERS:

     •   In a South American country, the OIG agent coordinated with the RSO to locate
         the perpetrator of an attempted rape of a Volunteer in 2003. In February 2006,
         local authorities arrested the accused. The Public Prosecutor initiated a formal
         investigation and multiple witnesses provided sworn statements. The OIG
         retained legal counsel to represent the victim, and an OIG agent accompanied the
         former Volunteer back to post to provide a legal deposition and to identify the
         suspect in a line-up. The OIG agent is coordinating documentary and physical
         evidence to be submitted to the Public Prosecutor to support the prosecution.

     •   In the case of a long-time missing Volunteer from a South American country, the
         OIG has continued coordinating with the RSO and hired a local private
         investigator to follow up on leads generated by a new publicity and reward
         campaign. The private investigator received 21 phone calls from persons who
         wished to provide information. Of the 21 callers, the investigator met with 12,
         but no new, reliable, or actionable information was developed. (The family of the
         missing Volunteer also hired two private investigators, and they have also failed
         to uncover any new or actionable leads.)

         During this period, an OIG agent also coordinated with the RSO on a search of an
         area identified as where the Volunteer may have last been seen with negative
         results. An OIG agent continues to coordinate with the RSO on the discovery of
         multiple sets of human remains found in various areas of the country to determine
         if they are those of the missing Volunteer. None of the over two dozen sets of
         human remains located to date have been identified as those of the Volunteer
         based on DNA, dental record, or general physical comparisons.

     •   On a Pacific island, a Volunteer was raped at knifepoint. The suspect was
         identified and arrested, and is pending trial. Two other subjects who were
         arrested and charged with a local crime related to the burglary and rape, have pled
         guilty and were sentenced to two years and 15 months, respectively.

     •   In western Africa, a female Volunteer was assaulted and robbed and escaped an
         attempted rape. An investigation by local police and the RSO resulted in one
         arrest and the recovery of the Volunteer’s property. The subject was tried and
         convicted and is awaiting sentencing.

     •   In the Caribbean, a Volunteer was raped and robbed. An OIG agent coordinated
         with the RSO and country director to obtain physical evidence and to follow up
         with local police and the Public Prosecutor. The OIG retained legal counsel to
         represent the victim. A preliminary and detention hearing were conducted, and
         the suspect was detained without bail. This case is pending trial.

     •   In the Caribbean, a Volunteer was raped by a security guard at a hotel where she
         was staying with two other Volunteers. During this period, an OIG agent


18                                            U.S. Peace Corps Office of Inspector General
    accompanied the former Volunteer back to the country for a Preliminary Hearing.
    This case is pending trial.

•   In the Caribbean, a Volunteer was raped at knifepoint in her home. The OIG
    coordinated with the RSO and Peace Corps staff on the collection of physical
    evidence. The Volunteer medically separated from Peace Corps, but is willing to
    prosecute if a suspect is identified and apprehended.

•   In the Pacific region, a Volunteer awakened when grabbed by a male who fled
    when she screamed. The OIG coordinated with the RSO and the Peace Corps
    country director on the incident, and the case has been referred to the local High
    Council for trial. The subject was arrested initially but is free pending further
    action of the court.

•   In Southeast Asia, a suspect in a Volunteer sexual assault and robbery case was in
    custody, but has been freed pending further action of the court.

•   A case was opened for an incident in a central Asian country in which a Volunteer
    returned home to discover that he had been the victim of a burglary. Police have
    arrested and are in the process of prosecuting a suspect.

•   The case of a Volunteer serving in Eastern Europe who was the victim of rape
    that was reported in the last Semiannual Report as having the charges dismissed
    continues to be pursued on appeal.

•   The accused in a case of sexual assault against a Volunteer in central Africa
    remains in custody awaiting trial. The Volunteer has separated from the Peace
    Corps, but a member of the OIG investigative team will return with the Volunteer
    once the trial commences.

•   The OIG, the RSO, local prosecutors, and law enforcement officials are
    cooperating in seeking the arrest of a defendant in the rape of a Volunteer in a
    South American country. The defendant failed to appear for trial in 2005. The
    suspect had been in custody, but was released on bail pending trial. The OIG
    assisted with funding for DNA analysis on evidence collected at the time of the
    rape that provides critical physical evidence for the pending trial.

•   The homicide of a Volunteer in Africa several years ago remains an open case
    with the OIG, the RSO, and FBI. The Peace Corps program in the country has
    been closed, but the OIG continues to coordinate with both law enforcement
    agencies and the local authorities to seek justice in the case.

•   In northern Africa, local villagers thwarted an attempted rape of a Volunteer. The
    assailant was apprehended, incarcerated, and is presently awaiting trial.




Semiannual Report to Congress       October 1, 2005 to March 31, 2006                    19
     •   In northwest Africa, two men raped a Volunteer who also suffered a fractured
         arm. Two suspects were subsequently apprehended, but one escaped after being
         in local police custody. The RSO is working closely with the OIG, and forensic
         evidence has been submitted to the FBI lab for analysis.

     •   An OIG investigator provided forensic investigative support to local police and
         the RSO in the investigation of the accidental death of a Volunteer in a sub-
         Saharan African country. The OIG also participated with other agency staff in
         advising the family on the circumstances of the death.


              TITLE 18 CRIMINAL AND OTHER INVESTIGATIONS CONDUCTED

CASE INVESTIGATIONS LEADING TO DISPOSITION:

     •   Regional management brought a case to the attention of the OIG that involved a
         post administrative officer hiring her husband as a contractor for Peace Corps.
         The contract was cancelled, and the OIG worked with the agency to provide an
         opportunity for the employee to resign and to make restitution in the amount of
         $4353.75. The case was presented to a United States Attorney who declined
         prosecution of a criminal charge under 18 USC 208 based upon the administrative
         remedies taken.

     •   In the Pacific region, the OIG reviewed a conflict of interest case uncovered
         during an OIG evaluation and referred it to the agency’s Designated Agency
         Ethics Official. The case concerned a local staff with a personal interest in a
         business that occasionally had been contracted by the Peace Corps. The
         employee claimed that he did not receive any proceeds from the business,
         although it was in his name. He signed a recusal letter, and the agency’s local
         office agreed that the agency would not contract with the business or any of its
         subsidiaries.

     •   As reported in the previous Semiannual Report, the OIG pursued an investigation
         into unauthorized personal use of a government vehicle by a Peace Corps country
         director in Africa and the filing of false time and attendance reports. During this
         reporting period, the case was referred to the United States Attorney who declined
         the case for criminal prosecution. The OIG is preparing a report to provide to
         management for a bill of collection to be issued to obtain reimbursement for the
         relevant costs.

     •   The OIG learned of a personal services contractor who had accepted $24,000 in
         unearned payments from the agency while on unpaid leave. The matter was
         brought to the attention of senior management who agreed to seek the termination
         or resignation of the contractor, and to arrange for a lump sum reimbursement of
         the funds received. The contractor did resign but has breached the agreement
         with the agency and has not yet made restitution as agreed. The case was referred

20                                            U.S. Peace Corps Office of Inspector General
    to the United States Attorney who declined prosecution on procedural grounds.
    Management is working on a collection action.

•   As a result of information developed during an OIG audit and information
    provided by agency management and the Designated Agency Ethics Official, the
    OIG conducted an investigation into a potential criminal conflict of interest by an
    American staff member in Central America. Prior to being hired, the employee
    had agreed to divest interest in the operation of a business interest in the country.
    The country director concurrently agreed that Peace Corps would not contract
    with the business interest. Investigation determined that on two occasions Peace
    Corps had engaged in contractual relationships with the business, the employee
    had continued ownership and management of the business interest, and the
    employee had engaged in other violations of the pre-employment agreement and
    18 USC 208, criminal conflict of interest. The employee resigned, and the case
    was referred to the United States Attorney for prosecution of a violation of 18
    USC 208. Based upon the administrative remedy, the case was declined for
    criminal prosecution.

•   In the Caribbean, a Volunteer was alleged to have engaged in sexual conduct with
    at least one local person under the age of 18 in violation of 18 USC 2423 (Protect
    Act). An OIG agent coordinated with the RSO to attempt to locate and interview
    possible victims and witnesses. The alleged victim could not be located, and no
    witnesses were identified. The Volunteer denied the allegations. The Volunteer
    was near the end of service but indicated he intended to remain in country after
    his Peace Corps service ended. The RSO coordinated with local authorities to
    deny the issuance of a visa that would allow the Volunteer to remain in country.
    This case may be reopened if the alleged victim is found.

•   In the Pacific region, a Volunteer was alleged to have engaged in sexual conduct
    with a minor under the age of 18, in violation of 18 USC 2423 (Protect Act). A
    witness statement was provided by another Volunteer who claimed the subject
    Volunteer was involved with a 15-year-old community member. The Volunteer
    had transferred to another country, but the OIG investigation failed to turn up a
    victim, despite allegations in both countries against the Volunteer.

•   An investigation was conducted into possible criminal misuse of Privacy Act
    documents by a former employee. The case was referred to the United States
    Attorney and declined for criminal prosecution. The case has been closed.

•   A Federal Employees Compensation Act investigation into alleged possible fraud
    of a returned Volunteer’s claim was closed after an intensive review (utilizing
    mail covers and IG Subpoenas) disclosed no actionable fraud.

•   In a sub-Saharan African country it was alleged that a Peace Corps employee was
    complicit in a rigged auction of Peace Corps vehicles. Investigation by the RSO
    revealed the allegation to be unsubstantiated.


Semiannual Report to Congress        October 1, 2005 to March 31, 2006                  21
     •   Allegations by a Volunteer that a local employee in an African country accepted
         bribes in return for agreeing that a Volunteer would be placed in the school whose
         official provided the bribe were investigated by the RSO and could not be
         substantiated.

     •   Based on information from an OIG evaluation in an eastern European program,
         OIG agents conducted an extensive investigation into possible Protect Act
         violations. The investigation documented several examples of unacceptable
         Volunteer behavior, and three terminated their service. One Protect Act case was
         referred to the United States Attorney for possible criminal prosecution and was
         declined.

     •   An investigation was opened after concerns were raised about the validity of HIV
         laboratory test results being performed by the Centers for Disease Control (CDC).
         The results of tests from CDC had high instances of false positives when the
         subjects were re-tested by other laboratories. The OIG requested the Health and
         Human Services OIG to do an internal review of lab procedures. The review
         could find no deviations from proper procedures to account for the false positive
         outcomes.

ACTIVE INVESTIGATIONS OF PENDING CASES:

     •   A former Volunteer previously indicted and awaiting trial in the Northern District
         of California for a Protect Act violation was re-indicted for the unlawful acts
         committed upon a minor in his country of service. The second indictment was
         brought under the extra-territorial provisions and jurisdiction of 18 USC 7 and a
         more general sex crimes statute. The subject pleaded guilty to the charge and is
         scheduled to be sentenced in the next several months.

     •   In a Caribbean country, a Peace Corps employee was terminated for cause related
         to the theft of Peace Corps money. Our audit revealed a total of $4,854.87
         attributed to the employee’s misappropriation of government funds and misuse of
         a government purchase card. The employee’s final severance pay was reduced by
         the total amount. The case is being prepared for prosecution by local authorities.

     •   An investigation was opened relating to a Volunteer in a central Asian country
         who it was alleged misappropriated federal money from a grant program. An
         OIG agent conducted an investigation confirming that the Volunteer had
         misappropriated $766.13 in grant funds. The Volunteer acknowledged his
         wrongdoing, resigned from the Peace Corps, and asked that the money be
         withheld from his readjustment allowance. The case will be referred to the United
         States Attorney for consideration of criminal prosecution for violations of 18 USC
         641 and 1001. The investigation is ongoing.




22                                            U.S. Peace Corps Office of Inspector General
•   OIG is continuing its investigation in conjunction with OPM/OIG into potential
    violations of the Federal Health Benefits Act. The case has been referred to the
    United States Attorney for potential criminal prosecution.

•   OIG has opened “area cases” to coordinate the review of FECA claims in the
    various regional offices of the Office of Federal Workers’ Compensation across
    the country. This allows OIG to track previously identified leads and information
    of cases in a given area. Each area case is assigned to an agent in the OIG. This
    is in addition to ongoing individual cases of potential FECA fraud being
    investigated by the OIG.

•   An investigation was conducted into a potential violation of 18 USC 207 by a
    former employee of the agency. The case has been referred to the Public Integrity
    Section, Criminal Division, Department of Justice.

•   OIG responded to a report of a male Volunteer sexually assaulting a female
    Volunteer in an Eastern European country. An investigation was conducted by
    OIG in conjunction with the FBI legal attaché and the RSO which led to an
    additional allegation by another (now former) Volunteer of an earlier sexual
    assault by the same Volunteer. The Volunteer terminated his service and the
    investigation is continuing.

•   OIG continues to work with the RSO in an African country on a case involving
    the fraudulent use of a Peace Corps computer network and Internet resources.
    Several defendants in the matter have been ordered to pay restitution to the Peace
    Corps. It is anticipated that the court will direct additional defendants to pay
    restitution as well.

•   In the Caribbean, a Volunteer was alleged to have engaged in sexual conduct with
    a minor in violation of 18 USC 2423 (Protect Act). An OIG agent conducted
    preliminary interviews of the victim and witnesses, and coordinated with the
    DHS-ICE Cyber Crimes Center to follow up in the Volunteer’s home of record.
    The investigation is ongoing, and further interviews are anticipated, as well as
    possible Grand Jury testimony. The former Volunteer suspect filed a FECA claim
    alleging stress and depression as a result of a perceived forced resignation. That
    claim is currently under review by the Department of Labor’s Office of Workers
    Compensation Program.

•   In a South American country, a Volunteer was reported to be engaged in sexual
    relations with a minor in violation of 18 USC 2423 (Protect Act). An OIG agent
    conducted interviews of multiple witnesses in country and subsequently
    interviewed the suspect with a DHS-ICE agent and obtained a confession. The
    Assistant United States Attorney in the Volunteer’s home of record accepted the
    case. The investigation is pending adjudication.




Semiannual Report to Congress      October 1, 2005 to March 31, 2006                   23
     •   An investigation was opened on a Volunteer who had served in northern Africa
         and who lied to both police and Peace Corps staff about money being stolen from
         his apartment. The investigation revealed that the money was not taken and the
         Volunteer was terminated from service. Later, the Volunteer filed a FECA claim
         which has been refuted by the agency. The investigation is ongoing.

     •   OIG responded to a report of sexual contact with multiple young males by a male
         Volunteer in an African country. The OIG and the RSO conducted an
         investigation in-country, and the Volunteer acknowledged sexual contact with
         young males but indicated that all were over the age of 18. The Volunteer
         terminated his service and signed a consent to search form for his Peace Corps
         site. The OIG investigation is continuing in conjunction with the RSO and ICE
         and has been referred to a United States Attorney for potential Protect Act
         violations.

     •   The Peace Corps program in an African country has reported the loss of medical
         files for four returned Volunteers from the carrier charged with shipping the files.
         OIG is assisting the agency in locating the records.

     •   OIG received an ethics complaint from a host country Peace Corps staff in
         Central Asia. This investigation is ongoing.

     •   In Peace Corps headquarters, an unannounced cash count revealed a $500.00
         shortage from a cashier’s imprest fund. OIG is investigating the loss.




24                                             U.S. Peace Corps Office of Inspector General
                                                     TABLES
                                  TABLE 1

     LIST OF REPORTS: AUDITS, EVALUATIONS AND INSPECTIONS


          FY 2005 Agency Financial Statements: Audit

          East Timor: Audit

          Namibia: Audit

          Vanuatu: Audit

          The Gambia: Follow-up Audit and Program Evaluation

          The Gambia: Follow-up to a Management Alert Report

          Bulgaria: Program Evaluation




Semiannual Report to Congress     October 1, 2005 to March 31, 2006   25
                                        TABLE 2

                   REPORTS ISSUED WITH COSTS QUESTIONED
                       OR FUNDS PUT TO BETTER USE




                                                               VALUE           NOTE

 Audit of Peace Corps/Namibia                                 $13,000              1




 Total of Reports Issued with Costs Questioned or             $13,000
 Funds Put to Better Use


 Note:
 1. Uncleared interim advances and outstanding travel advances.




26                                           U.S. Peace Corps Office of Inspector General
                                           TABLE 3

        STATUS OF REPORTS ISSUED BY OIG WITH QUESTIONED COSTS


                                                              NUMBER OF
                                                                               VALUE
                                                               REPORTS
A.   Reports issued prior to this period                            0
     For which no management decision had been                      0
     made on any issue
     For which some decisions had been made on                      0
     some issues
B.   Reports issued during the period                               0
     TOTAL OF CATEGORIES A AND B                                    0
C.   For which final management decisions were
                                                                    0
     made during this period
     (i) Costs allowed                                              0
     (ii) Costs disallowed                                          0
D.   For which no management decisions were
                                                                    0
     made during the period
E.   For which management decisions were made
                                                                    0
     on some issues during the period
     TOTAL OF CATEGORIES C, D, AND E                                0




     Semiannual Report to Congress         October 1, 2005 to March 31, 2006           27
                                       TABLE 4

     STATUS OF REPORTS ISSUED BY OIG WITH FUNDS PUT TO BETTER USE


                                                          NUMBER OF              VALUE
                                                           REPORTS
 A.    Reports issued prior to this period                      0

       For which no management decision
                                                                0
       had been made on any issue

       For which some decisions had been
                                                                0
       made on some issues

 B.    Reports issued during the period                         1              $13,000.00

       TOTAL OF CATEGORIES A AND B                              1              $13,000.00

       For which final management decisions
 C.                                                             1              $13,000.00
       were made during the period

       For which no management decisions
 D.                                                             0
       were made during the period

       For which management decisions
 E.    were made on some issues during the                      0
       period

       TOTAL OF CATEGORIES C, D, AND E                          1              $13,000.00




28                                           U.S. Peace Corps Office of Inspector General
                                           TABLE 5

                  REPORTS WITH RECOMMENDATIONS ON WHICH
                 CORRECTIVE ACTION HAS NOT BEEN COMPLETED

                          RECOMMENDATIONS OPEN 60 DAYS OR MORE
                                                                           NUMBER OF OPEN
REPORT                                                   DATE ISSUED
                                                                           RECOMMENDATIONS
Namibia: Audit                                             12/9/2005              9
East Timor: Audit                                          12/20/2005             4
Bulgaria: Evaluation                                       1/26/2006              4
The Gambia: Follow-up Audit and Program
                                                           1/27/2006              1
Evaluation
                         RECOMMENDATIONS OPEN 120 DAYS OR MORE
                                                                           NUMBER OF OPEN
REPORT                                                   DATE ISSUED
                                                                           RECOMMENDATIONS
FY 05 Agency Financial Statements: Audit                   11/15/2005             37
                         RECOMMENDATIONS OPEN 180 DAYS OR MORE *
                                                                           NUMBER OF OPEN
REPORT                                                   DATE ISSUED
                                                                           RECOMMENDATIONS
Gap Analysis                                               10/15/2004             9
FY 04 Agency Financial Statements: Audit                   11/15/2004             50
Samoa: Follow-up Audit                                     12/9/2004              5
Armenia: Audit and Program Evaluation                       2/1/2005              2
Audit of the Safeguarding of Social Security Numbers        3/4/2005              3
Dominican Republic: Evaluation                             4/15/2005              1
Belize: Audit                                              6/10/2005              3
Management Alert Report: Mozambique Audit                  6/16/2005              5
Kiribati: Audit and Program Evaluation                      7/1/2005              2
Ukraine: Audit                                             7/13/2005              2
Kenya: Follow-up Evaluation                                8/30/2005              5
Jamaica: Audit                                             9/20/2005              5
Micronesia: Evaluation                                     9/20/2005              3
Uganda: Audit                                              9/21/2005              9
Mozambique: Audit                                          9/30/2005              1

  * WE HAVE ENTERED RECOMMENDATIONS INTO OUR NEW SYSTEM ONLY SINCE OCTOBER 1, 2004.




    Semiannual Report to Congress          October 1, 2005 to March 31, 2006             29
                                               TABLE 6

                         SUMMARY OF INVESTIGATIVE ACTIVITY


 CASES                                                                 NUMBER             VALUE
 Cases Opened as of 10/01/05                                                146              -
 Cases Opened during 10/1/05 – 3/31/06                                      24               -
 Cases Closed that were previously Opened                                   65               -
 Cases Open and Closed during 10/1/05 – 3/31/06                              5               -
 Total Open Cases as of 3/31/06                                             97               -
 Referrals for Prosecution                                                   9               -
 Referrals for Agency Administration Action                                  5               -
 Referrals to Other Agency                                                   -               -
 COURT ACTIONS*
 Prosecutions                                                                -               -
 Convictions                                                                 1               -
 Suits                                                                       -               -
 Judgments                                                                   -               -
 Fines/Restitution                                                           -               -
 MONETARY RESULTS
 Savings                                                                     -               -
 Recoveries/Restitution                                                      3          $9,974.75
 Cost Avoidance                                                              1          $2,678.00
 ADMINISTRATIVE SANCTIONS
 Employees                                                                   3               -
 Other Persons/Businesses                                                   4                -
* Court actions reflect violations of U.S. law prosecuted in U.S. Courts.




30                                                    U.S. Peace Corps Office of Inspector General
                                  TABLE 7

              SUMMARY OF HOTLINE AND OTHER COMPLAINTS


Complaints Received                                            14
Complaints Closed                                              14
Awaiting OIG Action                                            0
Resulted in Investigations                                     1
Resulted in Audits                                             0
Resulted in Evaluations                                        0
Referred to Agency Management                                  4
Referred to Other Agency                                       0
No Action Needed                                               9




  Semiannual Report to Congress   October 1, 2005 to March 31, 2006   31
                                        TABLE 8

               REFERENCES TO REPORTING REQUIREMENTS OF
                     THE INSPECTOR GENERAL ACT


The Inspector General Act of 1978, as amended, specifies reporting requirements for
semiannual reports to Congress. The requirements are listed below and indexed to the
applicable page.


ACT REFERENCE                     REPORTING REQUIREMENTS                               PAGE
 Section 4(a)(2)     Review of legislation and regulations                              None
 Section 5(a)(1)     Significant problems, abuses, and deficiencies                     5 -13
 Section 5(a)(2)     Significant recommendations for corrective actions                 5 - 13
 Section 5(a)(3)     Prior significant recommendations on which corrective
                                                                                         29
                     action has not been completed
 Section 5(a)(4)     Matters referred to prosecuting authorities                       21- 25
 Section 5(a)(5)     Summary of instances where information was refused                 None
 Section 5(a)(6)     List of audit reports, including evaluations, inspections,
                                                                                         26
                     and reviews
 Section 5(a)(7)     Summary of significant reports                                     8 -13
 Section 5(a)(8)     Statistical table – questioned costs                                28
 Section 5(a)(9)     Statistical table – funds to be put to better use                   29
 Section 5(a)(10)    Summary of previous audit reports without
                                                                                        None
                     management decisions
 Section 5(a)(11)    Significant revised management decisions                           None
 Section 5(a)(12)    Significant management decisions with which the
                                                                                        None
                     Inspector General disagrees
 Section 5(a)(13)    Information under Federal Financial Management
                                                                                        None
                     Improvement Act of 1996




32                                            U.S. Peace Corps Office of Inspector General
Help promote the integrity, efficiency, and effectiveness of the Peace Corps.
Anyone knowing of wasteful practices, abuse, mismanagement, fraud, or
unlawful activity involving Peace Corps program or personnel should call or write
the Office of Inspector General.


Call:        Local                202-692-2915
             Toll Free            800-233-5874

Write:       Office of Inspector General
             Peace Corps
             P.O. Box 57129
             Washington, DC 20037-7129

Fax:         202-692-2901

Email:       oig@peacecorps.gov




Contacting the OIG for Protocol Notification:

Call:        Local                202-692-2900
             Toll Free            800-233-5874


Write:       Office of Inspector General
             Peace Corps
             P.O. Box 57129
             Washington, DC 20037-7129

Fax:         202-692-2906

Email:       violentcrimehotline@peacecorps.gov
